                           SOCIAL SECURITY
                                     June 29, 2009


The Honorable Max Baucus
Chairman
Committee on Finance
United States Senate
Washington, D.C. 20510

Dear Senator Baucus:

Your February 18, 2009 letter co-signed by Senator Grassley requested our assistance
in evaluating the Social Security Administration’s (SSA) response to the Lockheed
Martin study of the National Computer Center and SSA's efforts to strategically address
future information system needs. Specifically, we were requested to assess the
Agency’s overall future information system plans and provide the following information.

1. Has the Agency adequately developed a comprehensive Agency Information
   Infrastructure Plan that is designed to meet potential processing needs for the next
   20 years and allows the Agency to recover quickly if one or more major components
   of its processing infrastructure fails or is destroyed?

2. Has the Agency obtained information on industry best practices of other data
   infrastructure systems of similar scope in terms of design, geographic location and
   redundancy, and has this information guided their decisions for information systems
   planning?

3. What steps is the Agency taking to prevent the current situation that plagues the
   NCC from recurring?

4. Determine the process and criteria being used by SSA to identify a new location for
   the NCC and the risks and benefits of that process and criteria.

I appreciate the opportunity to share our insights on these important matters and am
pleased to provide you the enclosed report, which addresses your specific questions.
To ensure SSA is aware of the information provided to your office, we are forwarding a
copy of this report to the Agency. Also, I have sent a similar response to Senator
Grassley.




           SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
Page 2 - The Honorable Max Baucus


If you have any questions concerning this matter, please call me at (410) 965-7427 or
have your staff contact Wade Walters, Assistant Inspector General for External
Relations, at (410) 594-2176.

                                               Sincerely,


                                               S
                                               Patrick P. O’Carroll, Jr.
                                               Inspector General

Enclosure

cc:
Michael J. Astrue
                           SOCIAL SECURITY
                                     June 29, 2009


The Honorable Charles Grassley
Ranking Member
Committee on Finance
United States Senate
Washington, D.C. 20510

Dear Senator Grassley:

Your February 18, 2009 letter co-signed by Senator Baucus requested our assistance in
evaluating the Social Security Administration’s (SSA) response to the Lockheed
Martin study of the National Computer Center and SSA's efforts to strategically address
future information system needs. Specifically, we were requested to assess the
Agency’s overall future information system plans and provide the following information.

1. Has the Agency adequately developed a comprehensive Agency Information
   Infrastructure Plan that is designed to meet potential processing needs for the next
   20 years and allows the Agency to recover quickly if one or more major components
   of its processing infrastructure fails or is destroyed?

2. Has the Agency obtained information on industry best practices of other data
   infrastructure systems of similar scope in terms of design, geographic location and
   redundancy, and has this information guided their decisions for information systems
   planning?

3. What steps is the Agency taking to prevent the current situation that plagues the
   NCC from recurring?

4. Determine the process and criteria being used by SSA to identify a new location for
   the NCC and the risks and benefits of that process and criteria.

I appreciate the opportunity to share our insights on these important matters and am
pleased to provide you the enclosed report, which addresses your specific questions.
To ensure SSA is aware of the information provided to your office, we are forwarding a
copy of this report to the Agency. Also, I have sent a similar response to Senator
Baucus.




           SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
Page 2 - The Honorable Charles Grassley


If you have any questions concerning this matter, please call me at (410) 965-7427 or
have your staff contact Wade Walters, Assistant Inspector General for External
Relations, at (410) 594-2176.

                                               Sincerely,


                                               S
                                               Patrick P. O’Carroll, Jr.
                                               Inspector General

Enclosure

cc:
Michael J. Astrue
 CONGRESSIONAL RESPONSE
        REPORT


The Social Security Administration’s Information
        Technology Strategic Planning

                A-44-09-29120




                   June 2009
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               Executive Summary
OBJECTIVE
Our objective was to review the Social Security Administration’s (SSA) plan to address
its processing requirements 5 to 20 years in the future and what actions SSA has taken
to meet those requirements. Specifically, we addressed a congressional inquiry
concerning the Agency’s information technology (IT) strategic planning, disaster
recovery, industry best practices, National Computer Center (NCC) infrastructure
issues, and NCC replacement strategy.

BACKGROUND
In a February 18, 2009 letter co-signed by Senators Max Baucus and Charles Grassley,
we were requested to assess the Agency’s overall future information system plans.
Specifically, we were requested to provide the following information.

1. Has the Agency adequately developed a comprehensive Agency Information
   Infrastructure Plan that is designed to meet potential processing needs for the next
   20 years and allows the Agency to recover quickly if one or more major components
   of its processing infrastructure fails or is destroyed?

2. Has the Agency obtained information on industry best practices of other data
   infrastructure systems of similar scope in terms of design, geographic location and
   redundancy, and has this information guided their decisions for information systems
   planning?

3. What steps is the Agency taking to prevent the current situation that plagues the
   NCC from recurring?

4. Determine the process and criteria being used by SSA to identify a new location for
   the NCC and the risks and benefits of that process and criteria.

Also, as a follow up to our report, The Social Security Administration’s Ability to Address
Future Processing Requirements (A-44-09-19098), we updated the status of the
Agency’s efforts to address the significant issues identified in Lockheed Martin’s (LM)
NCC Feasibility Study.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                           i
RESULTS OF REVIEW
Our review of SSA’s IT strategic planning process and related documents found the
following.

1. SSA did not have a comprehensive Agency Information Infrastructure Plan to meet
   potential processing needs for the next 20 years and that would allow the Agency to
   recover quickly if one or more major components of its processing infrastructure fails
   or is destroyed.

   a. SSA has various IT strategic planning documents, but similar to other Federal
      agencies, they do not span 20 years. We found there was no requirement for
      SSA to have an Agency Information Infrastructure Plan that spans 20 years.
   b. SSA’s IT strategic planning documents are task-oriented in nature and need to
      be more strategic.
   c. SSA has an IT planning process, but the process is decentralized. SSA officials
      stated, “We agree that we need to strengthen our IT strategic planning process.
      We will address some of the concerns raised in the report with the release of the
      2009-2014 IRM Strategic Plan. We do not agree that our decentralized IT
      planning process is undesirable, but we can make improvement in coordination,
      communication, and integration.”
   d. SSA has a disaster recovery plan if the NCC becomes unavailable. However,
      the Agency’s current recovery plan depends heavily on the availability of a
      contracted facility, and it will take approximately 10 days to recover the systems
      required to perform the Agency’s essential functions.

2. SSA obtained information on industry best practices regarding data infrastructure
   systems by consulting with IT research firms. SSA consulted with these firms
   regarding such topics as Data Center outsourcing; Data Center staffing;
   management characteristics of effective Data Centers; next generation Data Center
   design; predicted infrastructure usage and upcoming technology; and infrastructure
   optimization. SSA management stated the Agency does not follow specific industry
   best practice documents, but its IT planning is based on experience and the best
   information available at the time. Moreover, SSA management stated that industry
   best practices were used in developing the Agency’s NCC replacement strategy.
   Although SSA management stated it uses the best available information when IT
   decisions are made, to date, we have been unable to obtain detailed cost estimates
   for all viable alternatives identified by LM in its NCC Feasibility Study.

3. SSA has taken the following steps to prevent the current situation that plagues the
   NCC from recurring.

   a. SSA has initiated or completed projects recommended by LM to sustain existing
      operations at the NCC. Nonetheless, we believe the Agency should have taken
      action sooner because SSA and the General Services Administration (GSA)


SSA’s Information Technology Strategic Planning (A-44-09-29120)                            ii
        knew about some of the recurring issues at the NCC and Utility Building since
        1989. Further, we believe the criticality of the building should be given a greater
        weight than the age of the building in determining whether a building is selected
        for renovation. SSA officials stated, “We disagree; we took action and funded
        significant projects to sustain the building.”
    b. SSA reported the new NCC is being designed in accordance with the Uptime
       Institute’s Tier III Data Center standards. These standards provide redundancy
       to mechanical and electrical infrastructure systems. Tier III facilities have
       redundant capacity that allows for any planned site infrastructure maintenance
       and activities without disrupting the computer hardware operation. 1 (See
       Appendix H for the Uptime Institute’s Tier Standards). The new Data Center will
       be designed to meet the Agency’s known infrastructure capacity needs based on
       anticipated trends and with the redundancy and flexibility for future modification
       and expansion without disruption to operations.

    c. SSA will continue to perform preventive maintenance activities at the NCC.

    In another OIG report, we noted that although the NCC concerns were not
    specifically considered as a part of the Durham Support Center (DSC) planning
    process, the DSC was designed and built to minimize the likelihood that the physical
    concerns identified at the NCC will be repeated. 2 SSA should use a similar
    approach to prevent the new Data Center from encountering similar problems that
    occurred at the NCC over time.

4. In 2007, SSA commissioned the LM NCC Feasibility Study to identify infrastructure
   and data processing capacity issues. In 2008, LM completed its study and
   recommended 17 projects that SSA should undertake to sustain existing IT
   operations through the end of Calendar Year 2014. In addition, LM recommended
   SSA construct a new Data Center apart from SSA’s campus in Woodlawn,
   Maryland. 3




1
  Planned activities include preventive and programmable maintenance, repair and replacement of
components, addition or removal of capacity components, and testing of components and systems. For
large sites using chilled water, this means two independent sets of pipes. Sufficient capacity and
distribution must be available to simultaneously carry the load on one path while performing maintenance
or testing on the other path. Unplanned activities, such as errors in operation or spontaneous failures of
facility infrastructure components, will still cause a Data Center disruption.
2
 SSA OIG, Processing Capacity of the Social Security Administration’s Durham Support Center
(A-14-09-19100).

3
 The preferred alternative identified in the LM Feasibility Study was to Build/Lease a New NCC Data
Center with Utility Infrastructure Off Campus.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                                         iii
      Based on LM’s recommendation, SSA decided to build a new Data Center 4
      off-campus. The American Recovery and Reinvestment Act of 2009 (ARRA)
      provided SSA $500 million to replace the NCC. SSA’s ARRA plan states that
      Agency staff is working closely with GSA and will participate in the design and
      construction of the new Data Center. SSA developed minimum requirements for the
      location of its new Data Center. However, the Agency is still in the preliminary
      stages of the project, and GSA is not yet soliciting for construction sites. Detailed
      information is procurement-sensitive and will not be released publicly until GSA
      issues the formal solicitation.

      SSA estimates it will cost approximately $750 million 5 for the facilities and
      equipment for the new Data Center. The Agency anticipates the new Data Center to
      be substantially completed by October 2013. Further, it expects to occupy the new
      Data Center in January 2014. However, this date is before any IT equipment is
      installed. A November 2008 Gartner report 6 showed the average cost of building an
      8,000 square foot Tier III Data Center was approximately $20.51 million ($2,564 per
      square foot). 7 The Agency plans to build a 247,000 gross square foot Data Center.
      Using the Gartner report as a baseline, the new Data Center would cost
      approximately $633.4 million. We recognize that the Gartner report may not be
      directly comparable to the Agency’s current cost data for its new Data Center.
      Nevertheless, without independently verifiable detailed cost estimates for the new
      Data Center, the Agency’s estimates remain problematic. SSA officials stated, “We
      disagree; we base our estimate along with the GSA’s estimate on the recommended
      program elements of the EYP study.” 8 Further, SSA officials stated, “The
      247,000 gross square footage includes non-computer space. If you apply the



4
 Although the new Data Center is commonly referred to as the National Support Center, as of March
2009, the Data Center had not yet been officially named by the Commissioner.
5
  Based on estimates of SSA’s spending for the construction of the new Data Center, funds will be
released in FY 2010 for research and studies to procure the land, funds will be released in FY 2011 to
design and construct the facility, and funds are being reserved for FY 2012 to purchase IT services and IT
start-up equipment. Additionally, GSA and SSA are discussing the possibility of using funds to acquire IT
consultant assistance for the planning process and to accelerate the schedule for site related services in
FY 2009. On April 1, 2009, GSA awarded a contract to Jacobs, a construction management firm, who is
responsible for preparing the detailed Program of Requirements (scope of work) with GSA and SSA
project team members.

6
    Data Center Availability: Tier Design Costs and Benefits Can Vary Greatly, November 12, 2008.
7
    This includes the estimated costs of construction and does not include ongoing operational costs.

8
 Feasibility Study for the Social Security Administration National Services Center Data Center Facility,
January 16, 2009. The following agencies and firms participated in the GSA study: (1) SSA, (2) GSA
Region 3, (3) Oudens Knoop Knoop + Sachs Architects (Architect), (4) HP Critical Facilities Services,
delivered by EYP MCF (Data Center Expert), and (5) Project Management Services Incorporated (Cost
Consultant).



SSA’s Information Technology Strategic Planning (A-44-09-29120)                                            iv
     Gartner estimate only to computer space in the new Data Center then the numbers
     would be in alignment.”

     Further, based on SSA’s prior large construction and renovation projects and
     Gartner’s November 2008 report, we believe it is unlikely the current estimated
     schedule and costs related to the new Data Center will be met. SSA needs to
     reconcile these numbers and explain why there is a discrepancy.

CONCLUSION
Because SSA’s IT systems are critical to meeting its mission and goals and that mission
impacts the lives of nearly all Americans, it is imperative that the Agency have a clear IT
vision that anticipates its future needs. Further, SSA’s current IT strategic plans are
short-term, tactical plans that do not provide a detailed description of how the Agency
intends to address its IT processing needs 10 to 20 years into the future. We believe,
as SSA progresses on implementing solutions to address its IT processing
requirements, it needs to have a more strategic and integrated approach to its IT
planning efforts.

Although the Agency has decided to construct a new Data Center and Utility Building off
campus, we were unable to determine whether this is the best use of taxpayer dollars
because we have not been provided detailed cost estimates for all alternatives for
replacing the NCC and its Utility Building.

To date, we have received three reports containing cost-related data. 9 However,
according to SSA, LM’s estimates were very preliminary and the focus of the LM study
was to determine the condition of the facility and to determine whether there was a need
for a new Data Center. It was not intended to be a cost estimate. SSA added that the
GSA study was a follow-on to the LM study and its purpose was to define square
footage needs which were used for cost estimation purposes in the Agency’s budget.
Further, SSA stated that the BAH Alternative Analysis was not a construction cost
estimate, was based on the GSA study cost estimates and only calculated life-cycle
costs of the building for the sole purpose of determining the return on investment to the
Government. According to SSA, it is not a construction cost estimate.

The Government Accountability Office (GAO) published a guide on best practices for
developing and managing capital program cost. 10 In its guide, GAO defines the basic
characteristics for credible cost estimates and a reliable process for creating them. We

9
  (1) Lockheed Martin's Final Feasibility Study, February 8, 2008; (2) General Services Administration's
Feasibility Study for the Social Security Administration National Services Center Data Center Facility,
January 16, 2009; and (3) Booz Allen Hamilton's SSA National Computer Center Alternatives Analysis,
January 29, 2009 (updated February 18, 2009).

10
  GAO Cost Estimating and Assessment Guide, Best Practices for Developing and Managing Capital
Program Costs, March 2009.



SSA’s Information Technology Strategic Planning (A-44-09-29120)                                            v
have solicited for a contractor to evaluate SSA’s process for selecting the replacement
strategy for the NCC, including the cost estimates for the various alternatives and the
use of industry best practices.

As reliance on electronic processing and technology grows and the Agency’s workload
increases, so does the need to ensure SSA’s IT infrastructure is designed to meet
future needs. SSA needs to focus its efforts on (1) strengthening its IT strategic
planning process and related documents; (2) identifying ways to accelerate planning,
constructing and operating the new Data Center; (3) developing contingency plans for
addressing its IT processing requirements and disaster recovery procedures in the
event the DSC and/or the new Data Center are not operational within the scheduled
time frames; (4) using industry best practices to aid in its IT strategic planning; and
(5) establishing controls and a detailed strategy for timely maintenance, repairs,
upgrades and replacement of critical IT infrastructure in the new Data Center to prevent
the current situation at the NCC from recurring.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                           vi
                                                                         Table of Contents
                                                                                                                    Page

BACKGROUND ......................................................................................................1

RESULTS OF REVIEW ..........................................................................................2

Question 1..............................................................................................................2

    SSA’s IT Strategic Planning Process .................................................................2

    SSA’s IT Strategic Planning Documents............................................................4

    Disaster Recovery..............................................................................................6

Question 2..............................................................................................................8

Question 3 .............................................................................................................9

    NCC and Utility Building...................................................................................10

    SSA’s Actions to Address Current and Future Infrastructure and
    Capacity Issues................................................................................................13

Question 4............................................................................................................17

CONCLUSIONS................................................................................................... 20

APPENDICES

APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Information Technology Planning Process Overview
APPENDIX D – The Social Security Administration’s Information Technology Strategic
             Planning Documents
APPENDIX E – Primary Mission Essential Functions, Mission Essential Functions and
             Supporting Activities
APPENDIX F – Lockheed Martin Recommendations
APPENDIX G – Recurring Infrastructure Issues at the National Computer Center and its
             Utility Building
APPENDIX H – Uptime Institute’s Data Center Tier Classifications and Performance
             Standards



SSA’s Information Technology Strategic Planning (A-44-09-29120)
                                                                  Background
OBJECTIVE
Our objective was to review the Social Security Administration’s (SSA) plan to address
its processing requirements 5 to 20 years in the future and what actions SSA has taken
to meet those requirements. Specifically, we addressed a congressional inquiry
concerning the Agency’s information technology (IT) strategic planning, disaster
recovery, industry best practices, National Computer Center (NCC) infrastructure
issues, and the NCC replacement strategy.

BACKGROUND
In a February 18, 2009 letter co-signed by Senators Max Baucus and Charles Grassley,
we were requested to assess the Agency’s overall future information system plans.
Specifically, we were requested to provide information on the following.

1. Has the Agency adequately developed a comprehensive Agency Information
   Infrastructure Plan that is designed to meet potential processing needs for the next
   20 years and allows the Agency to recover quickly if one or more major components
   of its processing infrastructure fails or is destroyed?

2. Has the Agency obtained information on industry best practices of other data
   infrastructure systems of similar scope in terms of design, geographic location and
   redundancy, and has this information guided their decisions for information systems
   planning?

3. What steps is the Agency taking to prevent the current situation that plagues the
   NCC from recurring?

4. Determine the process and criteria being used by SSA to identify a new location for
   the NCC and the risks and benefits of that process and criteria.

Also, as a follow up to our report, The Social Security Administration’s Ability to Address
Future Processing Requirements (A-44-09-19098), we updated the status of the
Agency’s efforts to address the significant issues identified in Lockheed Martin’s (LM)
NCC Feasibility Study. See Appendix B for a detailed discussion of our Scope and
Methodology.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                           1
                                                          Results of Review
Question 1

Has the Agency adequately developed a comprehensive Agency Information
Infrastructure Plan that is designed to meet potential processing needs for the
next 20 years and allows the Agency to recover quickly if one or more major
components of its processing infrastructure fails or is destroyed?

SSA did not have a comprehensive Agency Information Infrastructure Plan to meet
potential processing needs for the next 20 years and that would allow the Agency to
recover quickly if one or more major components of its processing infrastructure fails or
is destroyed.

a. SSA has various IT strategic planning documents, but similar to other Federal
   agencies, they do not span 20 years. We found there was no requirement for SSA
   to have an Agency Information Infrastructure Plan that spans 20 years.
b. SSA’s IT Strategic Plan documents are task-oriented in nature and need to be more
   strategic.
c. SSA has an IT planning process, but the process is decentralized. SSA officials
   stated, “We agree that we need to strengthen our IT strategic planning process. We
   will address some of the concerns raised in the report with the release of the 2009-
   2014 IRM Strategic Plan. We do not agree that our decentralized IT planning
   process is undesirable, but we can make improvement in coordination,
   communication, and integration.”
d. SSA has a disaster recovery plan if the NCC becomes unavailable. However, the
   Agency’s recovery plan depends heavily on the availability of a contracted facility,
   and it will take approximately 10 days to recover the systems required to perform the
   Agency’s essential functions.

SSA’S IT STRATEGIC PLANNING PROCESS

IT strategic planning is vital because it enables an agency to consider the resources,
including staff, infrastructure and funding, that are needed to manage, support and pay
for projects. Congress 1 and the Office of Management and Budget (OMB) 2 have

1
  The Clinger-Cohen Act, 40 United States Code (U.S.C.) § 11101 et seq., provides a framework for
effective IT management that includes systems integration planning, human capital management and
investment management. In addition, the Paperwork Reduction Act, Public Law Number (Pub. L. No.)
104-13, May 22, 1995, 44 U.S.C. § 3501 et seq., requires that agencies have strategic plans for their
information resource management.
2
 OMB Circular No. A-130, Management of Federal Information Resources, and Circular No. A-11, Part 7,
Planning, Budgeting, Acquisition, and Management of Capital Assets.



SSA’s Information Technology Strategic Planning (A-44-09-29120)                                         2
recognized the importance of IT strategic planning and management, which describe an
organization’s goals, the strategies it will use to achieve those goals, and performance
measures. The Government Accountability Office (GAO) has reported that a key
element to an agency’s success in modernizing its IT systems is IT strategic planning. 3
The Clinger-Cohen Act requires that Federal agencies establish effective and efficient
capital planning processes for selecting, managing and evaluating the results of all their
major investments in information systems. 4

At SSA, most of the IT functions are divided between the Offices of the Chief
Information Officer (OCIO) and Deputy Commissioner for Systems (DCS), while the
Information Technology Advisory Board (ITAB) approves IT projects. The Office of
Facilities Management (OFM), under the Deputy Commissioner for Budget, Finance
and Management, develops the strategic direction of SSA’s space, including the primary
computer center.

       OCIO – Defines the Agency’s IT vision and strategy through such functions as IT
capital planning and investment control, enterprise architecture and electronic
Government initiatives. OCIO also provides advice to ITAB on such topics as IT
systems strategies, budgets, investments, and acquisitions. OCIO worked with DCS to
publish the IT Vision and is responsible for preparing, publishing and maintaining the
Information Resources Management (IRM) Strategic Plan.

       DCS – Responsible for systems acquisition, design, development, testing,
validation, implementation and maintenance. In addition, DCS is responsible for the IT
planning and ITAB websites as well as the systems planning and reporting system.
Further, DCS oversees and provides Agency-wide support for the IT planning process.

       OFM – Develops, updates and implements facilities policies. Additionally,
OFM develops, implements and guides the strategic direction of the Agency’s space as
well as building and realty management programs. Further, OFM is responsible for the
daily operations, maintenance and repair of SSA's main complex and outlying buildings,
including the NCC and its Utility Building.

      ITAB - The governing body for SSA’s IT planning process 5 and responsible for
developing the Agency’s IT Plan. ITAB is chaired by the Chief Information Officer, and
its membership comprises the Deputy Commissioner for SSA, all Deputy
Commissioners for SSA’s components, and other Agency executives. ITAB reviews a


3
 GAO, Social Security Administration, Effective Information Technology Management Essential for Data
Center Initiative, GAO-09-662T, April 28, 2009.
4
    Pub. L. No. 104-106, Division E, Section 5113(b)(2)(A).
5
 SSA’s Policies and Procedures for the IT Planning Process, page 5, defines IT planning as the effort to
effectively and efficiently allocate Agency resources associated with its IT processes.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                                            3
variety of SSA’s IT projects, categorized by investment portfolios. 6 Each investment
portfolio contains a list of IT projects. These projects support one of the strategic
objectives in the Agency’s Strategic Plan. Portfolio teams are led by an Agency
executive who functions as the portfolio manager. The portfolio team coordinates with
stakeholders to prioritize IT projects according to their role in achieving the related
strategic objective. After IT projects are prioritized and presented to the ITAB, it must
decide how the Agency’s resources will be assigned to the various IT projects. In
making this decision, ITAB considers the portfolio priorities and the related cost-benefit
analysis provided by the sponsoring components. Such information includes return on
investment, full-time equivalent savings, dollar savings and cost avoidance. (See
Appendix C for an overview of SSA’s IT planning process.)

In testimony before the House Committee on Ways and Means, Subcommittee on
Social Security, 7 the Chairman of the Social Security Advisory Board (SSAB)
suggested that the state of the Agency’s Data Center operations, in part, is due to
SSA’s decentralized IT investment process and inadequate long-range planning. The
Chairman stated SSA’s decentralized IT governance process has resulted in a dilution
of ownership and management of the Agency’s overall IT process. The Agency’s ability
to deliver public service will increasingly depend on technology and governance of the
IT process and must have strong leadership that is empowered to make critical
decisions and is held accountable for those decisions. SSAB recommended the
Agency restructure its governance process and centralize overall responsibility for all IT
processes.

We believe the Agency’s IT strategic planning process could be improved. It is critical
that SSA strengthen its IT planning process with a more integrated approach to ensure
it has a clear IT vision for the future. We believe each component impacted by the
Agency’s IT strategic plans should have a prominent role in the IT strategic planning
process.

SSA’S IT STRATEGIC PLANNING DOCUMENTS

We found SSA does not have an Agency Information Infrastructure Plan. However,
SSA has various IT strategic planning documents including a 2007 IRM Plan, IT Vision
2009-2014, and Fiscal Year (FY) 2009-2010 Agency IT Plan. Nonetheless, we found
these plans generally did not provide a detailed description of how the Agency intends
to address its future IT needs. (See Appendix D for details regarding SSA’s IT strategic
planning documents.)

6
 SSA’s nine portfolios are (1) Core Services, (2) Disability Process, (3) Hearings Process, (4) High
Performing Workforce, (5) Program Integrity, (6) Savings and Solvency, (7) SSA Infrastructure, (8) Social
Security Number Process, and (9) Reimbursable Work. FY 2009-2010 Agency IT Plan, page 1.
7
 Chairman of the Social Security Advisory Board --Testimony before the House Committee on Ways and
Means, Subcommittee on Social Security Oversight Hearing on the SSA’s Provisions in the American
Recovery and Reinvestment Act of 2009, April 28, 2009.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                                         4
For example, in a prior OIG review, 8 we determined SSA’s 2007 IRM Plan provided
balanced and comprehensive coverage of its IRM and activities, but some
improvements were needed.

Specifically, we reported SSA’s IRM Plan needed to provide a better description of how
the Agency’s IRM activities will help accomplish the Agency’s mission, goals and
objectives. 9 The IRM Plan would also be more useful if it informed the reader of the
Agency’s present position and what it sees as its future IT architecture. Finally, the IRM
Plan should be structured in a way to better support the Agency’s Strategic Plan while
providing possible solutions to its future challenges and constraints.

We also determined SSA does not have a comprehensive plan to meet potential
processing needs for the next 20 years. Specifically, we found SSA’s IT strategic
planning documents are short-term, tactical plans that do not discuss the Agency’s IT
activities beyond FY 2014. Although the Agency's IT strategic planning documents do
not span 20 years into the future, the Agency believes it is looking to the future. For
example, the lease for its secondary support center expires in 2029, which Agency
management reported it is already assessing.

Given that there is no specific guidance on the exact content and length of time for an
Agency IT Strategic Plan, we reviewed the IRM Plans or IT Strategic Plans of 17 other
Federal agencies to identify best practices regarding IT planning documents. Similar to
SSA, we determined other Agencies’ plans did not span 20 years into the future but
were limited to 6 years. (See Appendix B for a list of the Agencies and documents
reviewed.)

SSAB believes the Agency’s prior strategic planning documents 10 published in 1988
and 2000 outlined a long-range and comprehensive IT vision for the Agency, whereas
SSA’s current planning documents tend to be narrowly focused and emphasize short-
range problem solving. In previous strategic planning documents, changes in societal
factors and business services were assessed, emerging technologies were appraised,
and strategic recommendations were developed for implementation over the following
10 years. For example, in a 1988 Strategic Plan, the Agency envisioned that by the

8
 SSA OIG, The Social Security Administration’s Information Resources Management Strategic Plan,
A-14-07-27133, September 2007.
9
  The Agency’s IRM Plan is not strategic in the following two areas: (1) IRM activities and the underlying
enterprise architecture (which is the explicit description and documentation of the current and desired
relationships among business and management processes and information technology) only span
2 years into the future, even though the IRM Plan states that it covers FYs 2006 through 2012 and
(2) The IRM Plan does not have a sufficient description about how the Agency plans to address its
biggest challenge: an increased workload due to disabled and retiring baby boomers.
10
  2000—A Strategic Plan (published in January 1988) and Social Security 2010 Vision (published in
August 2000).



SSA’s Information Technology Strategic Planning (A-44-09-29120)                                              5
year 2000, service delivery would include automated enrollment for retirement benefits,
the use of expert systems to support employee decisionmaking, and innovative self-
service options using automated teller machine-like technology. Further, in 2000, SSA
published a 2010 Vision, which discussed a full range of Internet services,
videoconferencing, real-time language translation capability and enhanced telephone
services.

SSAB further stated that SSA needs to return to long-range planning that envisions how
the Agency will deliver service and what the supporting infrastructure must be to make
this plan a reality. SSAB urged SSA to develop a 2020 vision stating, “The process
must include a broad scan of environmental factors that will arise within the next
decade, a thorough assessment of future technologies, a comprehensive review of all
major business processes, and in-depth analyses of service delivery channels and
opportunities for change or improvement.” SSAB believes short-term planning and
implementation strategies are not sufficient for the type of technological changes SSA
will need to make to meet future challenges.

We agree with SSAB that the Agency’s prior planning documents outlined a long-range
IT vision and were more strategic, whereas SSA’s current planning documents are
short-term, tactical plans. Our review of prior SSA strategic planning documents found
SSA's current plans tend to focus more on solutions to existing problems, such as
addressing the Agency's outdated telephone infrastructure, aging Data Center and IT
infrastructure and addressing the hearing backlog. In contrast, the prior plans identified
key trends and predictions to plan for the Agency's future processing needs.
Additionally, the current plans do not always define the expected outcomes related to
the various IT initiatives in terms of cost or time savings. Further, the prior plans
spanned 10 or more years into the future, whereas the current plans only span up
to 7 years into the future.

DISASTER RECOVERY

All agencies are required to have continuity of operations and disaster recovery plans to
ensure mission-essential functions are available under all conditions. 11 A system
outage resulting from a disaster at the NCC would effectively shut down operations
across the organization, including State disability determination services.

We found the Agency has a disaster recovery plan 12 should a man-made or natural
event affect the NCC to such an extent that normal production and computing services

11
  Department of Homeland Security, FEMA [Federal Emergency Management Agency] National
Continuity Programs, Federal Continuity Directive 1, Federal Executive Branch National Continuity
Program and Requirements, February 2008, Section 6. This policy states in part, that “All agencies,
regardless of their size or location, shall have in place a viable continuity capability to ensure continued
performance of their agency’s essential functions under all conditions.”
12
 The Social Security Administration’s Disaster Recovery Plan for Computer Operations at the National
Computer Center, February 19, 2009.



SSA’s Information Technology Strategic Planning (A-44-09-29120)                                                6
can no longer function in the site. Restoration and recovery plans have been developed
to ensure the most critical services are resumed and remain functional. However, the
Agency’s plan depends heavily on the availability of a contracted, off-site data
processing facility.

Based on disaster recovery testing performed over the past several years, it will take
about 10 days 13 to recover the systems that support SSA’s essential functions (see
Appendix E for details regarding SSA’s primary mission essential functions, mission-
essential functions, and supporting activities). Therefore, SSA’s ability to process
critical workloads 14 in the first 10 days after a disaster at the NCC would be reduced to
manual intakes (paper documents) with no automated processing. Even after the
systems are established at the contracted facility, only 34 percent of SSA’s systems
processing capacity would be available.

As part of the Agency’s Information Technology Operations Assurance initiative, SSA is
establishing a secondary site, the Durham Support Center (DSC), to process a portion
of SSA’s workloads and mitigate the risks associated with NCC downtime. Each center
will back up the data assets of the other. The Agency’s goal is by 2013, the critical
workloads of one can be assumed by the other within 24 hours.

According to congressional testimony by SSA management in April 2009, 15 within
approximately 6 months, the Agency expects to be able to process about half its
production workloads at the DSC, providing the necessary backup to the NCC.
Additionally, by 2013, the DSC will be able to provide full backup and recovery for the
Agency’s data and daily processing needs. We are assessing SSA’s disaster recovery
process 16 and DSC. 17




13
 This time frame reflects the recovery time in the event of a localized disaster that affects the NCC.
However, this time frame could be longer if there is a regional or global catastrophe.
14
   The Agency stated the “…‘core business processes,’ ’critical production’ and ’critical workloads’ are
often used generally and interchangeably around the Agency. These terms are common and must be
considered in the context of their use. The actual, detailed components of all of these ‘c’-workloads can
change as new/enhanced/repaired SSA applications, systems and hardware are introduced into the IT
architecture. These workloads allow us to pay people, exchange data, communicate and manage
records (which includes issuing SSNs).”
15
  Deputy Commissioner for Budget, Finance and Management---Testimony before the House Committee
on Ways and Means, Subcommittee on Social Security Oversight, Hearing on SSA’s Provisions in the
American Recovery and Reinvestment Act of 2009, April 28, 2009.
16
  SSA OIG, Quick Response Evaluation: The Social Security Administration’s Disaster Recovery
Process (A-14-09-29139), June 2009.
17
  SSA OIG, Processing Capacity of the Social Security Administration’s Durham Support Center
(A-14-09-19100).



SSA’s Information Technology Strategic Planning (A-44-09-29120)                                             7
Question 2

Has the Agency obtained information on industry best practices of other data
infrastructure systems of similar scope in terms of design, geographic location
and redundancy, and has this information guided their decisions for information
systems planning?

SSA officials stated they obtained best practices regarding data infrastructure systems
through consultation with IT research firms, such as Gartner, Inc., Info-Tech Research
Group, Corporate Executive Board, and Forrester Research, Inc. 18 SSA consulted with
these firms regarding such topics as Data Center outsourcing; Data Center staffing;
management characteristics of effective Data Centers; next generation Data Center
design; predicted infrastructure usage and upcoming technology; and infrastructure
optimization.

In 2008, SSA conducted an informal survey of 13 Federal agencies to investigate what
the best practices were for Data Center management and operations. Nine agencies
responded. 19 Per SSA, the respondents indicated they operated Data Centers with
redundancy, 20 failover, 21 and hot sites. 22 Seven of the nine respondents operated two
or three Data Centers. The remaining two agencies only operated one Data Center.

SSA management stated the Agency does not follow any specific industry best practice
documents. The Agency’s IT planning is based on experience and the best information
available at the time. For example, the Agency reported it reviewed LM’s April 2004
Final Disaster Recovery Business Impact Analysis Report, to formulate plans for the
DSC and LM’s February 2008 Final Feasibility Study to develop plans for the new Data
Center.


18
  Gartner, Inc., is an IT research and advisory company. Info-Tech Research Group provides its
members with IT research, tools and advice. Corporate Executive Board is a source of best practice
research, decision-support tools, and executive education for corporations and not-for-profit institutions.
Forrester Research, Inc. is a technology and market research company that provides advice to global
leaders in business and technology.
19
  The nine respondents were the (1) Centers for Disease Control, (2) Centers for Medicare and Medicaid
Services, (3) Financial Management Service, (4) Food and Drug Administration, (5) Environmental
Protection Agency, (6) Health Resources and Services Administration, (7) Indian Health Service,
(8) Internal Revenue Service, and (9) Department of the Treasury Headquarters.

20
  Redundancy is the duplication of a system or equipment that functions if an operating component or
system fails.
21
  Failover is the capability to switch over automatically to a redundant or standby computer server,
system, or network if the previously active server system or network fails or terminates.
22
  A hot site is an alternate facility that has in place the computer, telecommunications, other IT,
environmental infrastructure and personnel required to recover critical business functions or information
systems.



SSA’s Information Technology Strategic Planning (A-44-09-29120)                                               8
Although SSA management stated it uses the best available information when IT
decisions are made, to date, we have been unable to obtain detailed cost estimates for
all viable alternatives identified by LM in its NCC Feasibility Study. Further, we have
solicited for a contractor to evaluate SSA’s process for selecting the replacement
strategy for the NCC, including the cost estimates for the various alternatives and the
use of industry best practices. Furthermore, the contractor will evaluate SSA’s
decisionmaking process to ensure the selected replacement strategy is cost-effective,
efficient, and provides reasonable assurance SSA will have a Data Center that is in the
right location, with the right capacity, and operational within the needed time frame.
Given the time frame of the procurement process, our ability to fully respond to this
inquiry was limited. Once we receive the contractor’s final analysis, we plan to issue a
separate report to fully address the Committee’s inquiry.

Question 3

What steps is the Agency taking to prevent the current situation that plagues
SSA’s National Computer Center from recurring?

SSA has taken the following steps to prevent the current situation that plagues the NCC
from recurring.

a. SSA initiated or completed projects recommended by LM to sustain existing
   operations at the NCC (see Appendix F for a status update of SSA’s corrective
   actions to address LM’s recommendations). Nonetheless, we believe the Agency
   should have taken action sooner because SSA and the General Services
   Administration (GSA) knew about some of the recurring issues at the NCC and
   Utility Building since 1989 (see Appendix G for the recurring issues). Further, we
   believe the criticality of the building should be given a greater weight than the age of
   the building in determining whether a building is selected for renovation. SSA
   officials stated, “We disagree; we took action and funded significant projects to
   sustain the building.”
b. SSA reported the new NCC is being designed in accordance with the Uptime
   Institute’s Tier III Data Center standards. These standards provide redundancy to
   mechanical and electrical infrastructure systems. Tier III facilities have redundant
   capacity that allows for any planned site infrastructure maintenance and activities
   without disrupting the computer hardware operation. 23 (See Appendix H for the
   Uptime Institute’s Tier Standards). The new Data Center will be designed to meet


23
  Planned activities include preventive and programmable maintenance, repair and replacement of
components, addition or removal of capacity components, testing of components and systems, and more.
For large sites using chilled water, this means two independent sets of pipes. Sufficient capacity and
distribution must be available to simultaneously carry the load on one path while performing maintenance
or testing on the other path. Unplanned activities, such as errors in operation or spontaneous failures of
facility infrastructure components, will still cause a Data Center disruption.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                                          9
       the Agency’s known infrastructure capacity needs based on anticipated trends and
       with the redundancy and flexibility for future modification and expansion without
       disruption to operations.
c. SSA will continue to perform preventive maintenance activities at the NCC.

In another OIG report, we noted that although the NCC concerns were not specifically
considered as part of the DSC planning process, the DSC was designed to minimize the
likelihood that the physical concerns identified at the NCC will be repeated. 24 SSA
should use a similar approach to prevent the new Data Center from encountering similar
problems that occurred at the NCC over time.

NCC AND UTILITY BUILDING

The NCC was built in 1979 and occupied in May 1980. Since 1985, a number of
reviews have been completed for the NCC and its Utility Building. These reviews
identified recurring issues (see Appendix B for a list of the reports). Chart 1
summarizes the significant recurring issues these reviews identified (see Appendix G).

         Chart 1: Significant Recurring Issues at the NCC and its Utility Building
        Significant Issues                                   Calendar Year
     Identified at the NCC and
          Utility Building       1989      1994       1998      2001       2007       2008        2009
 Roof                             X         X                    X          X           X
 Lightning Protection Grid                                                  X          X
 Heating Ventilation and Air
 Conditioning (HVAC)
 System                            X         X                    X          X          X          X
 Federal Pacific Electric
 (FPE) Panels (Riser
 Project)                                    X                               X          X          X
 Uninterruptible Power
                25
 Supply (UPS)                                                     X                     X          X
 Fire Protection                             X                    X          X          X          X
 Facility Storage                                                 X          X          X
 Plumbing                          X         X                               X          X           X




24
  SSA OIG, Processing Capacity of the Social Security Administration’s Durham Support Center
(A-14-09-19100).
25
  A UPS, also known as a battery back-up system, provides emergency power to connected equipment
by supplying power from a separate source when utility power is not available. The UPS consists of three
parts: (1) a battery system that supplies power in the event of a power outage, (2) equipment that
regulates and converts the power, and (3) a notification/control system that monitors the condition of the
system and produces alerts when conditions are not “normal.”



SSA’s Information Technology Strategic Planning (A-44-09-29120)                                          10
As part of our prior 26 and current reviews, we determined the Agency has planned, or
taken some action to address, many of these issues. For example, SSA reported the
main NCC roof was installed in 1994, and the Utility Building roof was replaced in 2007.
In March 2009, a contract was awarded to replace the NCC warehouse roof. The
lightning protection system will be addressed as part of the NCC warehouse roof
replacement project.

Agency representatives stated the HVAC equipment has been well-maintained and
upgraded over the years. For example, the Agency reported it made chiller plant
renovations in 1998 and air handler upgrades in 2003. SSA reported it had budget
requests for air handler unit repairs in 2007 and cooling and water pumps in 2008. 27 In
addition, the Agency is regularly maintaining HVAC equipment, including air handler
units throughout the NCC.

The Agency reported in the early 1990s that additional circuit breakers had been
installed in FPE breaker panels because additional electrical capacity was needed for
NCC equipment. Agency staff acknowledged the breakers were not installed in
compliance with the National Electric Code. However, the ongoing Riser Project is
expected to resolve this issue. The Agency reported it sent GSA $9.7 million in
FY 2005 in a Reimbursable Work Authorization 28 for the riser panel replacement
project. However, the technical requirements involved in designing and planning the
Project to meet the Agency’s needs were extensive. As a result, the completion of the
design phase was time-consuming. SSA officials stated the contract was awarded in
May 2009.

In 1999, a UPS hot tie 29 installation provided redundancy for power requirements on the
critical loads. In April 2009, a contract was awarded to purchase UPS replacement
parts, which will be used to support an extension of the UPS maintenance contract
through Fiscal Year (FY) 2015.

Although the Agency plans to defer installation of a fire suppression system, it reported
there have been several budget requests in this area. Specifically, requests for a Utility
Building fire protection project in 2005, a high sensitivity smoke alarm in 2006, a fire



26
  SSA OIG, Quick Response Evaluation: The Social Security Administration’s Ability to Address Future
Processing Requirements (A-44-09-19098), March 2009.
27
  Although the Agency provided budget information, we did not verify whether these projects had been
completed.
28
  A reimbursable work authorization, GSA Form 2957, is used by SSA to obligate funds for services from
GSA. According to SSA, the RWA for the riser project does not expire until September 30, 2010. The
project is scheduled to be completed before the funding expiration date.
29
     A system that transfers the electrical load of one substation to another without an outage.



SSA’s Information Technology Strategic Planning (A-44-09-29120)                                        11
protection upgrade in 2007, and a fire alarm modification in 2008. 30 Additionally, we
confirmed SSA installed an FM200 31 in the tape storage silos in the NCC.

Further, the Agency reported plumbing is being managed under its normal maintenance
program. SSA reported there have been several budget requests for plumbing-related
items. For example, a request to upgrade the cathodic 32 in 2004 and replace piping in
2006. 33

Building Renovation and Construction Projects

During our review, we evaluated the Agency’s long-range strategic planning for
renovating the NCC and other buildings on SSA’s Headquarters’ campus. The Agency
reported it discusses long-range renovation planning for SSA headquarters
approximately every 5 years with GSA. In 2007, GSA and SSA representatives
discussed renovations of the Altmeyer, West High and Low Rise, and the NCC
buildings. According to SSA officials, the GSA Federal Building Fund lacked adequate
funding; therefore, these buildings were not scheduled for renovation. Further, Agency
representatives stated the NCC is one of the newer buildings on SSA’s campus.
Typically, building renovation schedules are related to the facility’s age and condition.
Consequently, the Operations and Annex buildings were renovated before the NCC
(see Chart 2 below). However, as SSA realized that technology advancement was
being rapidly introduced and required diversely different facility infrastructure system
designs than in the NCC, the Agency commissioned the LM study in 2007 and
responded to the findings in their 2008 report by moving the NCC ahead of the
remaining three older buildings on campus yet to be renovated.

We believe that because the NCC is critical to SSA’s continuity of operations and
mission, resources should have been committed to renovating and/or replacing the
NCC before other buildings. The chart below summarizes the renovation schedule for
the buildings on SSA’s Headquarters’ campus.




30
     See Footnote 26 on page 10.
31
  An FM200 is a gas-type fire suppression system. It is a fast-acting, waterless fire suppression system
used to protect critical assets.

32
  Cathodic protection is a method for preventing or controlling the corrosion of metal surfaces that are in
contact with water.
33
     See Footnote 26.



SSA’s Information Technology Strategic Planning (A-44-09-29120)                                          12
                             Chart 2: Building Renovation Schedule
            Building                      Year Built              Date of Last Renovation
 Altmeyer                                   1960          Not Renovated
 Operations                                 1960          Phase 1, 2001-2005; Phase 2, 2006-2007
 Annex                                      1965          2000-2002
 East High/Low Rise                         1971          1996-1999
 Supply                                     1971          Not Renovated
 West High/Low Rise                         1973          Not Renovated
 NCC & Utility 34                           1980          Not Renovated

We requested information for the Operations, Annex and East High/Low Rise Building
renovation projects. 35 The Agency referred us to GSA. To date, we have not received
all the information regarding the actual and planned costs and schedule for these
Buildings.

SSA’S ACTIONS TO ADDRESS CURRENT AND FUTURE INFRASTRUCTURE AND
CAPACITY ISSUES

LM NCC Feasibility Study

LM recommended 17 projects that should be undertaken at SSA’s NCC and Utility
Building to sustain existing IT operations through the end of Calendar Year 2014. Of
the 17, LM recommended 3 projects the Agency should defer because of the NCC’s
anticipated change in functional role.

Agency representatives explained it had initiated or implemented the feasible projects
recommended by LM. The Agency representatives believe these projects will provide a
positive return on investment to the Government. This includes the most significant
recommended projects of replacing the NCC feeder cables, 36 scheduling the planned
outages for the riser panel replacement project, and securing the commitment of a
maintenance contract for the UPS system through 2015. Also, SSA plans to continue
performing preventive maintenance activities at the NCC. See Appendix F for a status
update of SSA’s corrective actions to address LM’s recommendations.




34
  Although a complete renovation of the NCC and Utility building has not yet occurred, SSA reported it
has completed various projects, such as generator replacement, air handler upgrades, feeder cable
replacement, etc.
35
  We requested information regarding (1) GSA and SSA’s roles in the renovation project, (2) the planned
and actual total renovation costs, and (3) the planned and actual renovation schedule.
36
     Feeder cables are used to supply power to the NCC and Utility Building.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                                          13
SSA’s Building of a New Data Center

In 1983, SSA had a pre-feasibility plan developed by AEPA Architects Engineers, P.C. 37
The study determined it was feasible (1) for SSA to construct a multipurpose office
building, training center, records center and warehouse, or any combination thereof, at
the SSA main campus site and (2) to expand the existing NCC and supply building.

The study indicated the NCC was designed to be expanded vertically by 2 floors to
increase the building’s size by 180,000 gross square feet. It was anticipated that the
NCC would need to be expanded because of the Agency’s anticipated growth in
activities, changes in SSA’s mission, growth in population, program changes and new
legislation. The total estimated cost of the computer center expansion at that time was
$18 million.

In 2008, based on the LM NCC Feasibility Study, SSA officials decided to construct a
new Data Center 38 apart from the Agency’s Woodlawn, Maryland, campus to replace
the NCC. Agency officials stated the current NCC is approximately 30 years old and
was constructed based on the best practices at that time. SSA stated the planned Data
Center is based on today's best practices. The new Data Center will be designed to
meet all the Agency’s known infrastructure and capacity needs (including bandwidth
and data storage) based on anticipated trends and with the flexibility for future
modification and expansion without disruption to operations.

Further, the Agency reported the new Data Center will be built in accordance with the
Uptime Institute’s Tier III Data Center standards. These standards provide redundancy
to mechanical and electrical infrastructure systems. Tier III facilities have redundant
capacity that allows for any planned site infrastructure maintenance and activities
without disrupting the computer hardware operation. 39 Therefore, the Agency believes
it will avoid many of the issues in the current NCC, which was built before such
standards existed.

We reviewed reports issued by Gartner from 2007 to 2009 related to Data Centers,
strategic planning and IT. Based on a February 2009 report, 40 polling was conducted at
a December 2008 Gartner Data Center Conference to gain insight into the attendees'
37
     Pre-Feasibility Macroplan Colonial Park, December 1983.
38
 Although the new Data Center is commonly referred to as the National Support Center, as of
March 2009, the Data Center had not yet been officially named by the Commissioner.
39
   Planned activities include preventive and programmable maintenance, repair and replacement of
components, addition or removal of capacity components, and testing of components and systems. For
large sites using chilled water, this means two independent sets of pipes. Sufficient capacity and
distribution must be available to simultaneously carry the load on one path while performing maintenance
or testing on the other path. Unplanned activities, such as errors in operation or spontaneous failures of
facility infrastructure components, will still cause a Data Center disruption.
40
     Power and Cooling Remain the Top Data Center Infrastructure Issues, February 20, 2009.



SSA’s Information Technology Strategic Planning (A-44-09-29120)                                         14
most pressing issues and strategic plans. Approximately 96 percent of the respondents
indicated they are planning a Data Center project involving renovation, upgrade,
expansion, relocation or outsource in at least one of their Data Centers during the next
2 years. Gartner found from 2006 to 2008, the most popular action had changed from
relocation to a new leased or owned facility (30 percent) to an expansion/upgrade
(42 percent). Gartner reported that part of this shift can be attributed to the economy
and management's belief that it is less expensive to renovate or upgrade than to move
to a new facility. This is despite the fact that it is difficult and disruptive to upgrade a
Data Center.

SSA estimates it will cost approximately $750 million 41 for the facilities 42 and equipment
for the new Data Center. The Agency anticipates the new Data Center to be
substantially completed by October 2013. Further, it expects to occupy the new Data
Center in January 2014. However, this date is before installation of any IT equipment.
A November 2008 Gartner report 43 showed the average cost of building an
8,000-square foot Tier III Data Center was approximately $20.51 million ($2,564 per
square foot). 44 The Agency plans to build a 247,000-gross square foot Data Center.
Using the Gartner report as a baseline, the new Data Center would cost approximately
$633.4 million. We recognize that the Gartner report may not be directly comparable to
the Agency’s current cost data for its new Data Center. Nevertheless, without
independently verifiable detailed cost estimates for the new Data Center, the Agency’s
estimates remain problematic. SSA officials stated, “We disagree; we base our
estimate along with the GSA’s estimate on the recommended program elements of the
EYP study.” 45 Further, SSA officials stated, “The 247,000 gross square footage
includes non-computer space. If you apply the Gartner estimate only to computer
space in the new Data Center then the numbers would be in alignment.”

41
  Based on estimates of SSA’s spending for the construction of the new Data Center, funds will be
released in FY 2010 for research and studies to procure the land, funds will be released in FY 2011 to
design and construct the facility, and funds are being reserved for FY 2012 to purchase IT services and IT
start-up equipment. Additionally, GSA and SSA are discussing the possibility of using funds to acquire IT
consultant assistance for the planning process and to accelerate the schedule for site related services in
FY 2009. On April 1, 2009, GSA awarded a contract to Jacobs, a construction management firm that is
responsible for preparing the detailed Program of Requirements (scope of work) with GSA and SSA
project team members.

42
  This estimate is for an approximately 309,000 gross square foot facility that consists of a 247,000-gross
square foot Data Center, 53,000-gross square foot office building and 9,200-gross square foot
warehouse.
43
     Data Center Availability: Tier Design Costs and Benefits Can Vary Greatly, November 12, 2008.
44
     This includes the estimated costs of construction and does not include ongoing operational costs.

45
  Feasibility Study for the Social Security Administration National Services Center Data Center Facility,
January 16, 2009. The following agencies and firms participated in the GSA study: (1) SSA, (2) GSA
Region 3, (3) Oudens Knoop Knoop + Sachs Architects (Architect), (4) HP Critical Facilities Services,
delivered by EYP MCF (Data Center Expert), and (5) Project Management Services Incorporated (Cost
Consultant).



SSA’s Information Technology Strategic Planning (A-44-09-29120)                                             15
 Further, based on SSA’s prior large construction and renovation projects and Gartner’s
 November 2008 report, we believe it is unlikely the current estimated schedule and
 costs related to the new Data Center will be met. SSA needs to reconcile these
 numbers and explain why there is a discrepancy.

                     Chart 3: Building Renovation/Construction Schedule
                                            Renovation Projects
                                  Total Costs                            Completion Date
      Building
                   Planned         Actual      Difference      Planned         Actual    Difference
             46
Operations        $166 million     unknown      unknown     February 2007 September 2007 8 months
Annex 47           $60 million     unknown      unknown        unknown     January 2002  unknown
East High/Low
Rise Buildings     unknown        unknown         unknown       unknown          unknown         unknown
                                             Construction Project
DSC               $14 million    $44.26 million $30.26 million  May 2008       January 2009      8 months

 Although the Agency has decided to construct a new Data Center off campus, we are
 unable to determine whether this is the best use of taxpayer dollars because we have
 not been provided detailed cost estimates for all alternatives for replacing the NCC and
 its Utility Building. We have solicited for a contractor to evaluate SSA’s process for
 selecting the replacement strategy for the NCC, including the cost estimates for the
 various alternatives and the use of industry best practices. Furthermore, the contractor
 will evaluate SSA’s decisionmaking process to ensure the selected replacement
 strategy is cost-effective and efficient, and provides reasonable assurance that SSA will
 have a Data Center that is in the right location, with the right capacity, and operational
 within the needed timeframe.

 SSAB strongly urged SSA to undertake a self-assessment that would identify the
 underlying factors that allowed the current NCC situation to occur. We believe SSA
 should identify the underlying factors and implement the necessary controls to prevent
 this situation from recurring. Despite the corrective actions planned or taken by the
 Agency at the NCC in response to the 2008 LM study and the repairs and upgrades
 over the past 15 years, we believe the Agency should have taken action much sooner
 regarding many of the issues at the NCC.



 46
   According to GSA, the $166 million budgeted costs included the design, construction, management and
 inspection costs related to the project. Additionally, the total planned costs represent both GSA and SSA
 funding. The total actual costs were not provided during our review because, per GSA, the contracts
 were not yet closed.
 47
    According to GSA, the $60 million budgeted costs included the design, construction, management and
 inspection costs related to the project. Further, the January 2002 actual completion date represents the
 ending date for construction only. As of May 2009, we had not obtained the actual total renovation costs
 or planned renovation schedule. GSA representatives indicated it would take some time to gather this
 information.



 SSA’s Information Technology Strategic Planning (A-44-09-29120)                                       16
Question 4

Determine the process and criteria being used by SSA to identify a new location
for the NCC and the risks and benefits of that process and criteria.

In 2007, SSA commissioned the LM NCC Feasibility Study to identify infrastructure and
data processing capacity issues. In 2008, LM completed its study and recommended
17 projects that SSA should undertake to sustain existing IT operations through the end
of Calendar Year 2014. In addition, LM recommended SSA construct a new Data
Center with utility infrastructure away from SSA’s main campus. 48

Based on LM’s recommendation, SSA decided to build a new Data Center off campus.
The American Recovery and Reinvestment Act of 2009 (ARRA) provided SSA
$500 million to replace the NCC. 49 As required by ARRA guidance, 50 SSA developed a
Program Specific Plan for the new Data Center. 51 Nonetheless, the Agency is still in
the preliminary stages of the NCC replacement project. The Agency stated the final
criteria for selecting the site of the new Data Center is being developed. However,
when attempting to secure funds for the NCC replacement project, the Agency provided
information to the presidential transition team and others regarding the location for the
new Data Center. The Agency stated the location for the new Data Center must meet
the following minimum requirements.

    The location must be within 40 miles from SSA Headquarters in Woodlawn,
     Maryland.
    The location must be in a low-risk area for earthquakes, hurricanes and tornados.
    The location must be in an area not subject to continuing, severe climatic conditions.
    The location must be at or close to electrical utility services that provide at least two
     separately fed utility substations for power.



48
 The preferred alternative identified in the LM Feasibility Study was to build/lease a new NCC Data
Center with Utility Infrastructure off campus.
49
  H.R.1, American Recovery and Reinvestment Act of 2009 Division A – Appropriations Provisions, Title
VIII—Departments of Labor, Health and Human Services, and Education, and Related Agencies. Social
Security Administration Limitation on Administrative Expenses (including transfer of funds), H.R.1-71.
50
  OMB, M-09-15, Updated Implementing Guidance for the American Recovery and Reinvestment Act of
2009, Pub. L. No. 111-5, April 3, 2009.
51
  The program-specific plan provides such information as preliminary estimates of SSA’s spending
toward the construction of the new Data Center, a schedule of the major phases of the project
(procurement, planning, project execution phases, etc.), and a description of the Agency’s monitoring
process.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                                         17
     The location must be at or close to Points of Presence 52 for all three major carriers
      on GSA’s Networx Universal Contract. 53
     For ease of access during local or national emergencies, locations in close
      geographic proximity to SSA Headquarters would be given priority. For more distant
      locations, low traffic congestion will be an important consideration to facilitate
      movement of staff and data in and out of the facility.

In addition to the minimum requirements, the Agency reported it developed technical
considerations for the placement of the NCC. The primary location factor is linked to
the risks and costs associated with a transition to a site outside International Business
Machine's (IBM) Geographically Dispersed Parallel Sysplex (GDPS) technology. 54
Further, SSA identified key issues the Agency is considering when identifying the
location of the new Data Center, such as minimizing the costs of moving equipment,
relocation and/or travel of staff as well as connectivity after the Data Center moves.

SSA reported GSA is not soliciting for sites at this time. Further information is
procurement sensitive and cannot be released publicly until GSA issues the formal
solicitation. There is no legal requirement that GSA obtain competition in selecting sites
for public buildings. It has not yet been determined whether public advertisement will be
posted for this project. The Agency estimates site selection for the new Data Center will
take place in the 2nd quarter of FY 2010.

The Agency reported the selection and acquisition of sites for the new Data Center will
be performed pursuant to the provisions of 40 U.S.C. 3304 (formerly Section 5 of the
Public Buildings Act of 1959, 40 U.S.C. 604), the National Environmental Policies Act of
1969, 55 and the Uniform Relocation Assistance and Real Property Acquisition Policies
Act of 1970. 56 Further, SSA reported GSA maintains several in-house resources for
best practices and will consult with, and use, the Uptime Institute guidelines for Tier III
Data Centers (see Appendix H), and use contracted resources to identify project-
specific criteria and assist in the site evaluation process.

52
   This refers to the physical locations where SSA’s network in the new Data Center can connect to the
high-speed network of communication providers. Depending on the provider and terms of work, SSA
may be expected to fund the construction work (for example, roadway trenching, cable deployment, etc.)
to connect to the provider network.

53
  GSA’s Universal Networx Contract consists of the following three carriers: (1) AT&T Corporation,
(2) MCI Communications Services, Inc., doing business as Verizon Business Services, and (3) Qwest
Government Services, Inc.
54
   GDPS is an IBM technology for keeping information technology in sync. The Agency reported, at this
time, GDPS offers the shortest and safest approach to the transition but comes with a distance limit of
about 30 to 60 miles.
55
     Pub. L. No. 91-190, 42 U.S.C. § 4321 et seq.
56
     42 U.S.C. §§ 4601 - 4655.



SSA’s Information Technology Strategic Planning (A-44-09-29120)                                       18
Given the distance limitation of the GDPS technology, we requested information
regarding (1) other tools or IT the Agency could use to expand the location radius of the
new Data Center and (2) the Agency’s ability to move workloads from the NCC to the
DSC, which is located over 300 miles away from SSA Headquarters. The Agency
stated, “SSA has not conducted market research or solicited for information for such
tools for this specific intent. Risk mitigation throughout the move—5 years from now—is
key to the location of the new Data Center. Given the pace of plans to locate and build
the facility there is little time to canvas the market and pilot tools which may or may not
exist by 2014-2015.” Further, SSA stated, “GDPS was not used to move workloads to
Durham. The workloads that have been and will be moved to Durham are discrete
workloads that, from their inception, were designed for access via an independent wide
area network connection. The workloads remaining in the NCC that will relocate to the
NSC [National Support Center], are tightly integrated, designed to run within the same
processing complex with other companion workloads and designed for access via
synchronous, intra-computer interaction.”

Additionally, we have solicited for a contractor to evaluate SSA’s process for selecting
the replacement strategy for the NCC, including the cost estimates for the various
alternatives and the use of industry best practices. Furthermore, the contractor will
evaluate SSA’s decisionmaking process to ensure the selected replacement strategy is
cost-effective and efficient and provides reasonable assurance that SSA will have a
Data Center that is in the right location, with the right capacity, and operational within
the needed time frame.

Given the time frame of the procurement process, we were limited in our ability to fully
respond to this inquiry. Once we receive the vendor’s final analysis, we plan to issue a
separate report to fully address the Committee’s inquiry.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                          19
                                                                         Conclusions
Because SSA’s IT systems are critical to meeting its mission and goals and that mission
impacts the lives of nearly all Americans, it is imperative that the Agency have a clear IT
vision that anticipates its future needs. Further, SSA’s current IT strategic plans are
short-term, tactical plans that do not provide a detailed description of how the Agency
intends to address its IT processing needs 10 to 20 years into the future. We believe as
SSA progresses in implementing solutions to address its IT processing requirements, it
needs to have a more strategic and integrated approach to its IT planning efforts.

Although the Agency has decided to construct a new Data Center and Utility Building off
campus, we were unable to determine whether this is the best use of taxpayer dollars
because we have not been provided detailed cost estimates for all alternatives for
replacing the NCC and its Utility Building. To date, we have received three reports
containing cost-related data. 57 However, according to SSA, LM’s estimates were very
preliminary, and the focus of the LM study was to determine the condition of the facility
and determine whether there was a need for a new Data Center. It was not intended to
be a cost estimate. SSA added that the GSA study was a follow-on to the LM study,
and its purpose was to define square footage needs that were used for cost-estimation
purposes in the Agency’s budget. Further, SSA stated that the BAH Alternative
Analysis was not a construction cost estimate, was based on the GSA study cost
estimates and only calculated life-cycle costs of the building for the sole purpose of
determining the return on investment to the government. According to SSA, it is not a
construction cost estimate.

GAO published a guide on best practices for developing and managing capital program
cost. 58 In its guide, GAO defines the basic characteristics for credible cost estimates
and a reliable process for creating them. We have solicited for a contractor to evaluate
SSA’s process for selecting the replacement strategy for the NCC, including the cost
estimates for the various alternatives and the use of industry best practices.




57
  (1) Lockheed Martin's Final Feasibility Study, February 8, 2008; (2) General Services Administration's
Feasibility Study for the Social Security Administration National Services Center Data Center Facility,
January 16, 2009; and (3) Booz Allen Hamilton's SSA National Computer Center Alternatives Analysis,
January 29, 2009 (updated February 18, 2009).

58
  GAO Cost Estimating and Assessment Guide, Best Practices for Developing and Managing Capital
Program Costs, March 2009.



SSA’s Information Technology Strategic Planning (A-44-09-29120)                                        20
As reliance on electronic processing and technology grows and the Agency’s workload
increases, so does the need to ensure SSA’s IT infrastructure is designed to meet
future needs. SSA needs to focus its efforts on (1) strengthening its IT strategic
planning process and related documents; (2) identifying ways to accelerate planning,
constructing and operating the new Data Center; (3) developing contingency plans for
addressing its IT processing requirements and disaster recovery procedures in the
event the DSC and/or the new Data Center are not operational within the scheduled
time frames; (4) using industry best practices to aid in its IT strategic planning; and
(5) establishing controls and a detailed strategy for timely maintenance, repairs,
upgrades and replacement of critical IT infrastructure in the new Data Center to prevent
the current situation at the NCC from recurring.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                       21
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Information Technology Planning Process Overview
APPENDIX D – The Social Security Administration’s Information Technology Strategic
             Planning Documents
APPENDIX E – Primary Mission Essential Functions, Mission Essential Functions and
             Supporting Activities
APPENDIX F – Lockheed Martin Recommendations
APPENDIX G – Recurring Infrastructure Issues at the National Computer Center and its
             Utility Building
APPENDIX H – Uptime Institute’s Data Center Tier Classifications and Performance
             Standards




SSA’s Information Technology Strategic Planning (A-44-09-29120)
                                                                        Appendix A

Acronyms
    ARRA               American Recovery and Reinvestment Act of 2009
    BER                Building Engineering Report
    COOP               Continuity of Operations
    CPIC               Capital Planning and Investment Control
    DCS                Deputy Commissioner for Systems
    DSC                Durham Support Center
    EA                 Enterprise Architecture
    FPE                Federal Pacific Electric
    FY                 Fiscal Year
    GAO                Government Accountability Office
    GDPS               Geographically Dispersed Parallel Sysplex
    GSA                General Services Administration
    HVAC               Heating, Ventilation and Air Conditioning
    IBM                International Business Machine
    IRM                Information Resources Management
    IT                 Information Technology
    ITAB               Information Technology Advisory Board
    LM                 Lockheed Martin
    MEF                Mission-Essential Function
    NCC                National Computer Center
    NRP                National Response Plan
    OCIO               Office of the Chief Information Officer
    OFM                Office of Facilities Management
    OIG                Office of the Inspector General
    OMB                Office of Management and Budget
    PMEF               Primary Mission-Essential Function
    PRA                Paperwork Reduction Act of 1995
    Pub. L. No.        Public Law Number
    SSA                Social Security Administration
    SSAB               Social Security Advisory Board
    SSN                Social Security Number
    UPS                Uninterruptible Power Supply
    U.S.C.             United States Code




SSA’s Information Technology Strategic Planning (A-44-09-29120)
                                                                   Appendix B

Scope and Methodology
To accomplish our objective, we:

 Reviewed relevant Federal laws, regulations and guidance.
 Reviewed prior Office of the Inspector General and Government Accountability Office
  reports related to information technology (IT) planning.
 Reviewed the Social Security Administration’s (SSA) IT strategic planning
  documents.
 Obtained and reviewed documentation on industry best practices for Data Centers.
 Reviewed Information Resources Management (IRM) and IT Strategic Plans of
  17 other Federal agencies as follows.

    Department of Education IRM Strategic Plan, Fiscal Year (FY) 2007-2011,
     February 28, 2006
   Department of Energy IRM Strategic Plan, FY 2008-2010
   Department of the Interior IT Strategic Plan, FY 2007-2012
   Department of Health and Human Services IRM Strategic Plan, 2007-2012,
     February 27, 2007
   Department of Justice IT Strategic Plan, 2008-2013, February 28, 2008
   Department of Labor IT Strategic Plan FY 2005-2009, September 2005
   Department of State IT Strategic Plan, FY 2006-2010
   Department of Transportation IRM Strategic Plan, FY 2007-2012
   Farm Credit Administration IRM Plan, FY 2009-2014
   Federal Deposit Insurance Corporation IT Strategic Plan, 2008-2013
   Federal Reserve Board Division of IT Strategic Plan, FY 2007-2010, July 3, 2007
   General Services Administration (GSA) IT Strategic Plan, 2009-2011, August
     2007
   Department of Agriculture, Green IT Strategic Plan, January 12, 2009
   Department of Defense Interim Information Assurance Strategic Plan, March
     2008
   Department of Housing and Urban Development IT Strategic Plan, FY 2007-2012
   Department of Treasury IRM Plan, October 14, 2008
   National Aeronautics and Space Administration IRM Strategic Plan, September
     2007
 Reviewed documentation pertaining to SSA’s new Data Center.


SSA’s Information Technology Strategic Planning (A-44-09-29120)                   B-1
 Obtained and reviewed documentation to support the corrective actions planned or
  taken by SSA to address the significant issues identified in Lockheed Martin’s (LM)
  National Computer Center (NCC) Feasibility Study.
 Interviewed personnel from GSA and SSA’s Offices of Facilities Management, Chief
  Information Officer, Budget, and Systems.
 Reviewed prior GSA and LM reports pertaining to the NCC and its Utility Building
  including:

       GSA Engineering Survey of Second Floor—“Special Use Area,” SSA Computer
        Center Building, January 23, 1985;
       GSA Building Engineering Report, NCC Utility Building, September 12, 1989;
       GSA Building Engineering Report, National Computer and Utility Building,
        September 14, 1994;
       GSA Building Energy Audit & Chiller Optimization Report, NCC, June 19, 1995;
       GSA Generator Study for NCC at Utility Building, November 20, 1998;
       GSA Upgrade of Heating, Ventilation and Air Conditioning System, NCC Study
        Report, July 2001;
       GSA Building Engineering Report, Phase 1--Data Collection, SSA Woodlawn
        Facility, July 9, 2001;
       GSA Building Engineering Report, September 20, 2007;
       LM Final Feasibility Study, February 8, 2008; and
       GSA Feasibility Study for the SSA National Services Center, Data Center
        Facility, January 16, 2009.

We performed our review at SSA’s Headquarters in Baltimore, Maryland, between
February and May 2009. The entities reviewed were the Offices of the Deputy
Commissioner for Budget, Finance and Management; Deputy Commissioner for
Systems; and Chief Information Officer. We conducted our review in accordance with
the President’s Council on Integrity and Efficiency’s Quality Standards for Inspections. 1




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Public Law
Number 110-409 § 7, 5 United States Code App. 3 § 11.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                                       B-2
                                                                  Appendix C




SSA’s Information Technology Strategic Planning (A-44-09-29120)
                                                                                   Appendix D

The Social Security Administration’s Information
Technology Strategic Planning Documents
The Social Security Administration (SSA) has various information technology (IT)
strategic planning documents including a 2007 Information Resources Management
(IRM) Strategic Plan, IT Vision 2009-2014, and Fiscal Year (FY) 2009-2010 Agency IT
Plan.

2007 IRM Strategic Plan

Agencies must develop and maintain an IRM Plan, as required by the Paperwork
Reduction Act of 1995 (PRA). 1 According to the Office of Management and Budget
(OMB), IRM Plans should support an agency’s Strategic Plan. 2 OMB does not have
guidance on the specific contents of an IRM Plan. However, an IRM Plan should be
strategic in nature and address the requirements of Federal IRM, as expressed in the
PRA and OMB Circular A-130. 3

SSA’s 2007 IRM Plan covers a 7-year period from FYs 2006 though 2012. The Agency
reported it is revising its IRM Plan, which will cover FYs 2009 through 2014. SSA’s IRM
Plan has been formulated to be a cornerstone of the Agency's IT investment strategy. It
is a framework and a guiding principle assisting the Agency in making effective
decisions regarding the delivery of technology for employees, the public and
businesses.

The purpose of SSA’s IRM Plan is to

         describe how IRM activities help accomplish SSA’s mission, goals and objectives;
         ensure IRM decisions are integrated with organizational planning, budget,
          procurement, financial management, human resources management and program
          decisions;
         present an overview of SSA’s Enterprise Architecture (EA) 4 that describes and
          documents both the current and desired relationships among business and
          management processes and IT; and


1
    44 United States Code (U.S.C.) § 3506(b)(2).
2
    OMB Circular A-130, Management of Federal Information Resources, 8.b.(1)(a).
3
    Id.
4
 EA is the explicit description and documentation of the current and desired relationships among
business and management processes and IT.


SSA’s Information Technology Strategic Planning (A-44-09-29120)                                    D-1
   serve as a key component of SSA’s IT capital planning and investment control
    (CPIC) 5 process.

The IRM Plan defines strategies for achieving a variety of objectives, such as operating
and maintaining IT infrastructure, securing data and IT resources, maintaining and
enhancing existing applications, as well as building and/or acquiring new applications.

IT Vision 2009-2014

SSA’s IT Vision covers a 6-year period from FYs 2009 through 2014. In this document,
the Agency outlined its strategic plan to provide 21st century services to the American
people by reshaping policies and procedures to take maximum advantage of
technology.

The Agency acknowledges that its future business process depends on effective
technology. Therefore, the Agency must perform an overall assessment of its technical
capabilities and plan for the appropriate use of new technologies. One of the
challenges for SSA is to be aware of emerging technology and gauge if and when to
adopt it. SSA's IT Vision document outlines the result of this assessment, the three
interdependent strategic imperatives and the IT strategies for each.

The Agency's strategic principle is to use innovative technologies with a robust
infrastructure to meet the changing needs of the American public. SSA reported it
needs significant investment in IT for the following three imperatives.

 Strategic Imperative 1: Changing how we do business
     Actively seek input from the public, business partners, and internal users to
      define and optimize business processes.
     Ensure the software applications critical to the services we provide use
      streamlined and modern technologies that support a greater reliance on a self-
      service business model.
     Maintain a robust data exchange architecture that fully supports the growing
      demand for information sharing.




5
  CPIC is defined and mandated by the Clinger-Cohen Act, Public Law Number 104-106, Division E,
Section 5122, 40 U.S.C. § 11302 and OMB Circular No. A-130, Management of Federal Information
Resources, 8.b.(1). It is a process for maximizing the value and assessing the risks of IT acquisitions.
Also, it is a management process for the identification, selection, control and evaluation of investments in
information resources. Further, it is a decision making process for ensuring IT investments integrate
strategic planning, budgeting, procurement and the management of IT in support of Agency mission and
business needs.


SSA’s Information Technology Strategic Planning (A-44-09-29120)                                          D-2
 Strategic Imperative 2: Building a stronger IT foundation
     Protect the sensitive information we maintain on every American and ensure that,
      in a disaster, we can fully recover our systems and continue to provide service on
      which our country depends.
     Provide secure and continuous critical systems availability to employees,
      citizens, Government agencies and businesses.
     Gain efficiencies and cost savings by offering high quality electronic services.
     Protect the environment and conserve energy in our use of technology.

 Strategic Imperative 3: Revamping software and databases
     Engineer software applications to provide flexibility for future expansion.
     Migrate to highly shareable and cost-effective databases and ensure the
      accuracy, privacy and integrity of our data.
     Support the transition from Common Business Oriented Language to more
      robust Web technology.

The IT Vision provides an estimated implementation timeline for major milestones
associated with the Agency's three strategic imperatives. Although the timeline only
covers FYs 2009 through 2014, SSA reported the initiatives typically span beyond this
period. The Agency anticipates it will take between 5 and 10 years to plan, develop and
implement these changes.

FY 2009-2010 Agency IT Plan

The Agency’s current IT Plan covers FYs 2009 and 2010. The Plan documents the
allocation of the Agency’s IT resources within its eight portfolios. 6 The primary factors
that drive the focus of the Agency’s IT investment are the CPIC, Agency goals and
objectives, President’s Management Agenda, and higher monitoring authorities. 7


6
 SSA’s nine portfolios are (1) Core Services, (2) Disability Process, (3) Hearings Process, (4) High
Performing Workforce, (5) Program Integrity, (6) Savings and Solvency, (7) SSA Infrastructure, (8) Social
Security Number Process, and (9) Reimbursable Work. FY 2009-2010 Agency IT Plan, page 1.
7
 Higher monitoring authorities refers to external entities mandating or recommending changes, such as
Congress, auditors and the courts.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                                       D-3
                                                                                  Appendix E

Primary Mission Essential Functions, Mission
Essential Functions and Supporting Activities1
Mission Essential Functions (MEF) are the limited set of department and agency-level
Government functions that must be continued after a disruption of normal activities.
Primary Mission Essential Functions (PMEF) are a subset of the MEFs that directly
support the eight functions the President and national leadership will focus on to lead
and sustain the Nation during a catastrophic emergency. 2 Federal Continuity Directive
1 3 requires the incorporation of continuity requirements into the daily operations of all
agencies to ensure seamless and immediate continuation of PMEF capabilities,
allowing critical Government functions and services to remain available to the public.

The Social Security Administration (SSA) has identified the following as its PMEFs,
MEFs, and supporting activities.

PMEFs

1. Enumeration:
      a. Assigning Social Security numbers (SSN)
      b. Issuing replacement SSN cards
      c. Enumeration at birth
      d. Verifying SSNs
      e. Providing SSNs to the Internal Revenue Service, law enforcement and border
          patrol
2. Administering Title II and XVI Claims for Benefits and Post-Entitlements for disability
   and retirement:
      a. Claims intake
      b. Eligibility determinations
      c. Evidence collection
      d. Initial payments
      e. Certifying payments to the Department of the Treasury

1
 Provided by the Offices of Budget, Finance and Management, Facilities Management, and Emergency
Preparedness.
2
 Department of Homeland Security, FEMA [Federal Emergency Management Agency] National
Continuity Programs, Federal Continuity Directive 2, Federal Executive Branch Mission Essential
Function and Primary Mission Essential Function Identification and Submission Process, February 2008,
Annex A.
3
 Department of Homeland Security, FEMA [Federal Emergency Management Agency] National
Continuity Programs, Federal Continuity Directive 1, Federal Executive Branch National Continuity
Program and Requirements, February 2008, Section 6.



SSA’s Information Technology Strategic Planning (A-44-09-29120)                                     E-1
       f.   Enabling the post-entitlement process
       g.   Processing changes of information
       h.   Performing benefit re-computations
       i.   Initiating overpayment recovery
       j.   Executing appeals process

   MEFs

3. Earnings
       a. Receiving earnings reports
       b. Establishing and maintaining earnings records
       c. Determining work history and calculating benefit payment amounts
       d. Validating and updating the Master Earnings File
4. Informing the Public
       a. Managing the national 800-number
       b. Maintaining the SSA website
       c. Staffing Internet requests
       d. Handling press relations
       e. Providing educational materials
5. Information and Technology Management
       a. Maintaining the National Computer Center (NCC)
       b. Maintaining a viable NCC Disaster Recovery Plan and the capability to
          implement it
       c. Maintaining the information technology infrastructure including hardware
          (processors); system software; and telecommunications at SSA Headquarters
          and the Emergency Relocation Site/Alternate Facility
6. Administrative Management
       a. Performing payroll operations
       b. Maintaining critical employee health
       c. Support and emergency services
       d. Exercising hiring authority
       e. Fulfilling labor management agreements
       f. Providing workload tracking and control support
       g. Performing financial operations
       h. Maintaining building operations
7. Management Information
       a. Providing executive management reports and statistical reports from
          operational data stores
8. Performance of SSA’s Responsibilities Under the National Response Plan (NRP)
       a. Developing and implementing a strategy for the integration of the National
          Incident Management System into continuity of operations (COOP) and
          emergency response plans, policies and procedures
       b. Establish and maintain a roster of trained personnel to perform SSA’s NRP
          functions




SSA’s Information Technology Strategic Planning (A-44-09-29120)                  E-2
9. Performance of SSA’s COOP Responsibilities
      a. Maintaining contact with other departments, agencies and Federal
         organizations, and the capability and plan to transfer the Headquarters COOP
         missions to another SSA component, if necessary.

The detailed components of all these critical workloads can change as
new/enhanced/repaired SSA applications, systems and hardware are introduced into
the information technology architecture.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                    E-3
                                                                                                                                          Appendix F

Lockheed Martin Recommendations
                                                                             Status Per Prior Office of the                    Status Per Our Current Review
    Issue and       Lockheed Martin            LM                          Inspector General (OIG) Report 1                           As of June 2009
      Status          (LM) Finding        Recommendation                    Agency                     OIG Review               Agency              OIG Review
                                                                           Response                                            Response
National           The NCC feeder         Replace the feeder    The Social Security               Verified a contract    The feeder cable       Confirmed the
                           2
Computer           cables were            cables immediately.   Administration (SSA) awarded      had been awarded to    replacement project    permanent feeder
Center (NCC)       identified as the                            a contract to replace the         replace the feeder     has been completed.    cables had been
Feeder             most apparent                                feeder cables in September        cables and observed                           installed.
Replacement        single point of                              2008. As of March 2009, the       temporary cables
                   failure. 3                                   Agency reported the new           being installed.
Completed                                                       feeder cables were installed,
                                                                tested, energized and in use.
Federal Pacific    The FPE panel          Replace the FPE       General Services                  Verified the project   The plans for the Riser   SSA officials
Electric (FPE) 4   breakers most          panels                Administration (GSA)              design was complete.   Project remain on         stated, “. . . the
Panel              likely will not open   immediately.          completed a design for the                               schedule. The             actual award date
Replacement        should an “over                              Riser Project. SSA expected                              contract was awarded      was May 20, 2009.”
                            5
(Riser Project)    current” occur.                              GSA to award a contract by                               in May 2009.
                                                                March 2009. The project was
Ongoing                                                         scheduled to be completed
                                                                over 3 holiday weekends in
                                                                October 2009, February 2010
                                                                and May 2010. The
                                                                contingency date is July 2010.


1
    SSA OIG, The Social Security Administration’s Ability to Address Future Processing Requirements (A-44-09-19098), March 2009.
2
    Feeder cables are used to supply power to the NCC and Utility Building.
3
    A single-point-of-failure is a point (electrical equipment, cables, etc.) on a power system that can cause downtime if a failure or fault occurs.
4
 FPE is a company that manufactured a variety of electrical equipment. During the original construction of the NCC, FPE panels and breakers
were installed.
5
  Circuit breakers cut off power when the electrical wiring has too much current flowing through it. An “over current” is a condition in an electrical
circuit when the current in the circuit exceeds the rated capacity of that circuit or the equipment connected to that circuit.


SSA’s Information Technology Strategic Planning (A-44-09-29120)                                                                                              F-1
                                                                            Status Per Prior Office of the                      Status Per Our Current Review
    Issue and     Lockheed Martin            LM                           Inspector General (OIG) Report 1                               As of June 2009
      Status        (LM) Finding        Recommendation                     Agency                      OIG Review                 Agency               OIG Review
                                                                          Response                                              Response
Uninterruptible   The UPS service       Explore three         The Agency is implementing         Verified SSA received   The extension of the      Verified a contract
Power Supply      contract expires in   options involving     the first and second options.      a list of UPS           maintenance contract      had been awarded
(UPS) 6 System    September 2012.       (1) extending the     Specifically, SSA received a       replacement parts.      will not occur until      in April 2009 to
Replacement       The UPS               maintenance           list of UPS replacement parts      When purchased,         2012 in conjunction       purchase the UPS
                  manufacturer has      contract;             which it expects to purchase in these parts will be        with the expiration of    replacement parts.
Ongoing           warned that, at       (2) stockpiling       Fiscal Year (FY) 2009. The         used to support an      the existing
                  present, failure of   replacement           contractor agreed to perform       extension of the UPS    maintenance contract.
                  any large             equipment and         maintenance through FY 2015        maintenance contract    The contract for the
                  component cannot      hiring personnel to   provided SSA purchased the         through FY 2015.        replacement parts was
                  be repaired.          maintain the UPS      recommended replacement                                    awarded in April 2009.
                                        system; and           parts. The third option was                                The replacement of the
                                        (3) installing at     only necessary if the Agency                               UPS is not applicable.
                                        least two new         did not receive funding for a
                                        systems.              new Data Center.




6
 A UPS, also known as a battery back-up system, provides emergency power to connected equipment by supplying power from a separate
source when utility power is not available. The UPS consists of three parts: (1) a battery system that supplies power in the event of a power
outage, (2) equipment that regulates and converts the power, and (3) a notification/control system that monitors the condition of the system and
produces alerts when conditions are not “normal.”


SSA’s Information Technology Strategic Planning (A-44-09-29120)                                                                                                F-2
                                                                       Status Per Prior Office of the                         Status Per Our Current Review
  Issue and    Lockheed Martin            LM                         Inspector General (OIG) Report 1                                 As of June 2009
    Status       (LM) Finding        Recommendation                   Agency                     OIG Review                     Agency              OIG Review
                                                                     Response                                                 Response
Roof           The membrane          Repair the roof     GSA completed a roof design        Verified a Request for     The contract was         Verified a contract
Membrane and   and stone roofs       membrane and        in FY 2008 and expected to         Proposal for the NCC       awarded for the roof     had been awarded
Roof Drains    above both the        clear the roof      award a contract in March          warehouse roof             replacement project in   in March 2009 to
               NCC and its Utility   drains as soon as   2009. The NCC warehouse            replacement was            March 2009. The          replace the NCC
Ongoing        Building provide      possible.           roof will not have stones on       issued in May 2008, a      Agency continues to      warehouse roof.
               an environment                            top. Also, the Utility Building    design was                 perform inspections
               for dirt and seeds                        roof was recently replaced with completed in                  and maintenance on
               to collect and                            a roof that does not have          September 2008, and        all roofs and drains as
               grow into plants                          stones on top. Therefore, the      a solicitation for offer   part of the scheduled
               with extensive root                       Agency believes the issue of       was issued in              preventive
               systems.                                  “an environment of dirt and        November 2008.             maintenance program.
                                                         seeds to collect” has been         Also, we confirmed
                                                         eliminated.                        the Agency inspects
                                                                                            the roof as part of its
                                                         Further, SSA reported the          preventive
                                                         main NCC roof was installed in maintenance
                                                         1994 and does have stones on schedule. In addition,
                                                         top. SSA staff removed all         we verified the Utility
                                                         growth, cleared all drains and     Building roof was
                                                         increased the frequency of         replaced in Calendar
                                                         inspections on the roofs for       Year 2007.
                                                         early identification of possible
                                                         growth. Agency staff stated
                                                         there are currently no leaks on
                                                         the main NCC roof.

                                                         The Agency believes the
                                                         replacement of the NCC
                                                         warehouse and Utility Building
                                                         roofs and increased inspection
                                                         of the main NCC roof and
                                                         drains addresses all the issues
                                                         in the LM study.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                                                                                             F-3
                                                                             Status Per Prior Office of the                      Status Per Our Current Review
  Issue and       Lockheed Martin           LM                             Inspector General (OIG) Report 1                               As of June 2009
    Status          (LM) Finding       Recommendation                       Agency                      OIG Review                Agency                OIG Review
                                                                          Response                                               Response
Lightning         The roof lightning   Repair the lightning   Completed repairs on the NCC Observed some                   In March 2009, GSA       Verified a contract
Protection Grid   protection grid      protection grid        and Utility Building roofs. The     corrections the          awarded a design         was awarded in
                  was damaged on       immediately.           Utility Building roof lightning     Agency made to           contract for architect   March 2009 for the
Ongoing           the NCC and its                             protection system was               repair the damage to     and engineering          design of the
                  Utility Building.                           certified. The lightning            the lightning            services.                lightning protection
                                                              protection system will be           protection grid. Also                             system for the
                                                              reevaluated when the                verified an inspection                            NCC.
                                                              warehouse roof repairs are          was completed and
                                                              completed.                          the Utility Building
                                                                                                  roof was certified in
                                                                                                  October 2007.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                                                                                                 F-4
                                                                              Appendix G

Recurring Infrastructure Issues at the National
Computer Center and its Utility Building
Roof and Lightning Protection Grid
       In 1989, about 9 years after the National Computer Center (NCC) was occupied,
        the General Services Administration (GSA) issued a Building Engineering Report
        (BER) that identified the need to replace the roof on the Utility Building. 1
       In 1994, approximately 14 years after the NCC was occupied, GSA issued a BER
        that identified the need to replace the Utility Building and NCC roof.
       In 2001, approximately 21 years after the NCC was occupied, GSA issued a BER
        that identified the need to replace the Utility Building and NCC warehouse roof.
       In 2007, about 27 years after the NCC was occupied, GSA issued a BER that
        identified the need to repair the roof and lightning protection grid on the NCC.
       In 2008, about 28 years after the NCC was occupied, Lockheed Martin (LM)
        issued a Feasibility Study that identified the need to repair the roof and lightning
        protection grid on the NCC.

        SSA reported the main NCC roof was installed in 1994 and the Utility Building
        roof was replaced in Calendar Year 2007. The replacement of the NCC
        warehouse roof is in-process. The lightning protection system will be addressed
        as part of the NCC warehouse roof replacement project.

Heating, Ventilation and Air Conditioning (HVAC) System
       In 1989, about 9 years after the NCC was occupied, GSA issued a BER that
        identified the need to replace chillers and pumps.
       In 1994, approximately 14 years after the NCC was occupied, GSA issued a BER
        that identified the need to modify existing and install new air handling units.
       In 2001, about 21 years after the NCC was occupied, GSA issued a BER that
        reported the need to replace all air handling units because they had reached the
        end of their useful life.
       Also in 2001, GSA issued an HVAC system report that identified numerous
        problems, such as damaged air handling equipment, poor indoor air quality, and
        maintenance problems because of equipment failing or not functioning properly.
       In 2007, about 27 years after the NCC was occupied, GSA issued a BER that
        reported unacceptable indoor air quality and aged and outdated equipment.



1
 GSA periodically performs BERs on Federal Buildings. These reports document the condition and
deficiencies of a building.

SSA’s Information Technology Strategic Planning (A-44-09-29120)                                  G-1
       In 2008, about 28 years after the NCC was occupied, LM issued a Feasibility
        Study that reported potential mold, poor indoor air quality, insufficient cooling in
        the Data Center, and identified the need to replace the HVAC system.
       In 2009, approximately 29 years after the NCC was occupied, GSA issued a
        Feasibility Study that reported the system was at the end of its useful life.

        Agency representatives stated the equipment has been well-maintained and
        upgraded over the years. For example, the Agency reported it made chiller plant
        renovations in 1998 and air handler upgrades in 2003. Most recently, SSA
        reported budget requests were submitted for air handler unit repairs in 2007 and
        for cooling and water pumps in 2008. 2 In addition, the Agency is performing
        regular maintenance on HVAC equipment, including air handler units throughout
        the NCC.

Federal Pacific Electric (FPE) Panels 3
       In 1994, approximately 14 years after the NCC was occupied, GSA issued a BER
        that identified the need to replace the FPE panels.
       In 2007, approximately 27 years after the NCC was occupied, GSA issued a BER
        that reported the FPE panels were obsolete.
       In 2008, approximately 28 years after the NCC was occupied, LM issued a
        Feasibility Study that identified the need to replace the FPE panels.
       In 2009, approximately 29 years after the NCC was occupied, GSA issued a
        Feasibility Study that identified the need to replace the FPE panels.
        The Agency reported in the early 1990s, additional circuit breakers had been
        installed in FPE breaker panels because additional electrical capacity was
        needed for the Data Center equipment. Agency staff acknowledged the added
        breakers were not installed in compliance with the National Electric Code.
        However, the Riser Project is expected to resolve this issue. SSA reported that it
        sent GSA $9.7 million in FY 2005 in a Reimbursable Work Authorization 4 for the
        Riser Project. However, due to extensive design and planning, the Project has
        not yet been completed. SSA officials stated the contract was awarded in May
        2009.




2
 Although the Agency provided budget information, we did not verify whether these projects had been
completed.
3
 FPE is a company that manufactured a variety of electrical equipment. During the original construction
of the NCC, FPE panels and breakers were installed.
4
 A reimbursable work authorization, GSA Form 2957, is used by SSA to obligate funds for services from
GSA. According to SSA, the RWA for the riser project does not expire until September 30, 2010. The
project is scheduled to be completed before the funding expiration date.

SSA’s Information Technology Strategic Planning (A-44-09-29120)                                       G-2
Uninterruptible Power Supply (UPS) 5
         In 2001, approximately 21 years after the NCC was occupied, GSA issued a BER
          that identified the need to replace the UPS batteries within the following 5 years
          as they exceeded their useful life.
         In 2008, approximately 28 years after the NCC was occupied, LM issued a
          Feasibility Study that identified the need to replace the UPS system as the failure
          of any large component could no longer be repaired.
         In 2009, approximately 29 years after the NCC was occupied, GSA issued a
          Feasibility Study that reported the UPS suffered a failure and was at the end of
          its useful life.

          The Agency reported a UPS hot tie 6 installation occurred in 1999 that provides
          redundancy for power requirements on the critical loads. Most recently, a
          contract was awarded in April 2009 for the purchase of UPS replacement parts,
          which will be used to support an extension of the UPS maintenance contract
          through FY 2015.

Fire Protection
         In 1994, approximately 14 years after the NCC was occupied, GSA issued a BER
          that identified the need to replace missing sprayed-on fireproofing.
         In 2001, approximately 21 years after the NCC was occupied, GSA issued a BER
          that identified the need to repair damaged and missing fireproofing.
         In 2007, approximately 27 years after the NCC was occupied, GSA issued a BER
          that reported the fire protection system was not in compliance with applicable
          code and the fire sprinkler system was worn, damaged, and corroded.
         In 2008, approximately 28 years after the NCC was occupied, LM issued a
          Feasibility Study that identified the need to install a fire suppression system.
         In 2009, approximately 29 years after the NCC was occupied, GSA issued a
          Feasibility Study that reported the Agency’s current sprinkler system, if activated,
          would be detrimental to the IT equipment and electrical infrastructure in the Data
          Center.

          Although the Agency plans to defer the installation of a fire suppression system,
          SSA reported there have been several budget requests in this area. Specifically,
          requests for a Utility Building fire protection project in 2005, a high sensitivity
          smoke alarm in 2006, a fire protection upgrade in 2007, and a fire alarm



5
  A UPS, also known as a battery back-up system, provides emergency power to connected equipment
by supplying power from a separate source when utility power is not available. The UPS consists of three
parts: (1) a battery system that supplies power in the event of a power outage, (2) equipment that
regulates and converts the power, and (3) a notification/control system that monitors the condition of the
system and produces alerts when conditions are not “normal.”
6
    A system that transfers the electrical load of one substation to another without an outage.


SSA’s Information Technology Strategic Planning (A-44-09-29120)                                       G-3
          modification in 2007 and 2008. 7 Additionally, we confirmed SSA installed an
          FM200 within the tape storage silos in the Data Center.

Facility Storage
         In 2001, approximately 21 years after the NCC was occupied, GSA issued a
          HVAC system report that identified the need to clean out mechanical equipment
          rooms being used for storage.
         In 2007, approximately 27 years after the NCC was occupied, GSA issued a BER
          that identified the need to remove stored items from electrical closets and work
          areas and separate battery rooms from storage rooms.
         In 2008, approximately 28 years after the NCC was occupied, LM issued a
          Feasibility Study that reported adequate storage does not exist and therefore
          items are improperly stored in closets and mechanical rooms.

Plumbing
         In 1989, about 9 years after the NCC was occupied, GSA issued a BER that
          identified the need to provide plumbing fixtures for handicapped use.
         In 1994, approximately 14 years after the NCC was occupied, GSA issued a BER
          that identified the need to replace all existing plumbing fixtures including
          handicapped accessible fixtures.
         In 2007, approximately 27 years after the NCC was occupied, GSA issued a BER
          that identified aged, worn, and noncompliant plumbing fixtures.
         In 2008, approximately 28 years after the NCC was occupied, LM issued a
          Feasibility Study that reported corrosion of pipes, build-ups in pipes and pipe
          failures in the facility were evident. Also, LM reported the plumbing system was
          over 30 years old.
         In 2009, approximately 29 years after the NCC was occupied, GSA issued a
          Feasibility Study that reported the plumbing system is near the end of its useful
          life and replacement will be required in the near future. Further, GSA reported an
          insufficient number of plumbing fixtures based on increased personnel.
      The Agency reported plumbing is being managed under its normal maintenance
      program. SSA reported there have been several budget requests for plumbing
      related items. For example, a request to upgrade the cathodic 8 in 2004 and replace
      piping in 2006. 9


7
    See Footnote 2.
8
    Cathodic protection is a method for preventing or controlling the corrosion of metal surfaces.
9
    See Footnote 2.




SSA’s Information Technology Strategic Planning (A-44-09-29120)                                      G-4
                                                                  Appendix H


Uptime Institute’s Data Center Tier Classifications
and Performance Standards




SSA’s Information Technology Strategic Planning (A-44-09-29120)           H-1
SSA’s Information Technology Strategic Planning (A-44-09-29120)   H-2
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
